         U.S. Department of
                                                                                  Memorandum
         Transportation
         Office of the Secretary
         of Transportation
         Office of Inspector General

Subject: INFORMATION: Quality Control Review of                                            Date:       April 15, 2013
         Single Audit on the Greater Cleveland Regional
         Transit Authority
         Report No. QC-2013-068

 From: George E. Banks                                                                    Reply to
                                                                                          Attn. of:    JA-20
       Program Director for Single Audit

    To: Regional Administrator, FTA, Region V

         The U. S. Department of Transportation (DOT) is the cognizant Federal single audit
         agency for the Greater Cleveland Regional Transit Authority (Authority). This
         report presents the results of our Quality Control Review (QCR) of a single audit of
         the Authority performed by Ciuni & Panichi, Inc (C&P) for the fiscal year ending
         December 31, 2011. During this period, the Authority expended over
         $51 million from DOT grant programs, as shown on the attached Schedule of
         Expenditures of Federal Awards. The DOT program determined to be major by
         C&P was the Federal Transit Cluster.

         The Office of Management and Budget’s (OMB) Circular A-133, “Audits of States,
         Local Governments, and Non-Profit Organizations,” requires the auditor to render
         an opinion on the entity’s financial statements, identify inappropriate use of Federal
         funds, and report internal control and compliance deficiencies that affect Federal
         grant programs.

         C&P rendered unqualified opinions on the Authority’s financial statements and the
         Authority’s compliance with DOT’s major program requirements for the Federal
         Transit Cluster. They also did not question any costs concerning DOT programs. 1

         SCOPE

         The purpose of our QCR was to determine: (1) whether the audit work complied with
         the Single Audit Act of 1984, as amended (the Act), and OMB Circular A-133; and
         (2) the extent to which we could rely on the auditors’ work on the major DOT
         program, the Federal Transit Cluster.




         1
             The single audit report issued by C&P is available upon request to singleauditrequest@oig.dot.gov.
                                                                                    2

RESULTS

We determined that C&P’s audit work was Acceptable with a Deficiency, and
therefore, generally met the requirements of the Act, OMB Circular A-133, and
DOT’s major program. We found nothing to indicate C&P’s opinion on DOT’s
major program was inappropriate or unreliable.

While the deficiency we identified in the audit documentation needs to be corrected,
we determined that the deficiency did not alter the overall results of the audit report.
The deficiency, which should also be corrected in future audits, is related to:

Identification of Major Program Key Internal Controls – Based on our
discussion with C&P’s personnel, C&P performed walkthroughs, observations, and
inquiries of the Authority’s staff to identify key controls for its major program
internal control testing. However, C&P did not adequately document their basis for
how they identified the Authority’s key controls for each of the major program’s
direct and material compliance requirements. C&P agreed to improve its
documentation of the key controls in future audits.

If you have any questions concerning this report, please call me at (410) 962-1729, or
John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.


                                          #

cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Director of Accounting, Greater Cleveland Regional Transit Authority
